              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Management Controls over
Patent and Royalty Income at
Ames Laboratory




OAS-M-05-05                                 May 2005
                                              -2-


      •    Combine patent and royalty revenues with monies earned by other entities in a
           single bank account and make disbursements without Ames' approval; and,

      •    Accumulate and retain about $252,000 in investment income earned on Ames
           patent and royalty revenues.

Ames also had not established specific plans to use patent and royalty revenues and had
expended only about $1,000 of the over $1 million available during FY 2004.

These issues occurred because the Department had not provided guidance regarding the
extent to which its laboratories were permitted to rely on third-party entities to assume
fiduciary responsibility for patent and royalty revenues. Furthermore, the Ames Site
Office did not provide adequate oversight to ensure that Ames established a plan for the
use of patent revenues in a manner consistent with contract terms. As a result,
approximately $3.5 million generated by technology transfer is at greater risk of loss and
of not being productively used.

Ames had been successful at commercializing its technology and had earned more
licensing fees than any of the Department's laboratories during FYs 2002-2003. While
these achievements are noteworthy, additional effort is needed to help ensure that fees
generated by this activity are adequately protected. Therefore, we have made several
recommendations designed to ensure that patent and royalty revenues are safeguarded
and used as intended.

MANAGEMENT REACTION

The Office of Science generally concurred with our finding and recommendations and
agreed to take corrective actions. While Science officials agreed that guidance on
third-party administration of royalty revenues would be useful, they believed that such
guidance requires Departmentwide development and coordination. Further, they stated
that Ames was not contractually required to record patent activities in the accounting
system. The Office of Science's comments are included in Appendix 3.

We consider management comments responsive to our recommendations. After
consultation with Department officials suggested by the Office of Science, we continue to
believe that Science is the appropriate organization to develop operational guidance on
third-party administration and that recording patent activities in the accounting system
would improve controls over funds.

Attachment

cc:       Chief of Staff
          Chief Operating Officer, Office of Science, SC-1
          Director, Office of Science and Technology Policy Analysis, PI-25
          Manager, Chicago Office
          Team Leader, Audit Liaison, ME-100
REPORT ON MANAGEMENT CONTROLS OVER PATENT AND
ROYALTY INCOME AT AMES LABORATORY


TABLE OF
CONTENTS


           Controls over Laboratory Royalties

           Details of Finding ......................................................................1

           Recommendations......................................................................3

           Comments ..................................................................................4


           Appendices

           1. Objective, Scope, and Methodology.....................................6

           2. Prior Audit Reports ...............................................................8

           3. Management Comments .......................................................9
CONTROLS OVER LABORATORY ROYALTIES

Patent Management     The Ames Laboratory did not control royalty income
And Use of Royalty    resulting from the successful commercialization of its
Revenues              research. Rather, it relied on a third party entity to account
                      for and control its royalty revenues without any
                      independent verification of its status. Furthermore, Ames
                      did not use available funds to further its research,
                      technology transfer or education missions.

                                          Third-Party Fiduciary

                      The Department's contract with Iowa State University to
                      manage and operate the Ames Laboratory authorized the
                      use of a third-party entity to perform all patent activities
                      necessary to support commercialization of its research.
                      The University contracted with a third-party entity to
                      conduct legal actions in pursuit of patents, account for, and
                      collect royalties from patent licensees on behalf of the
                      University -- including those resulting from Ames'
                      research. The third-party received 15 percent of gross
                      royalties as a fee for its services in addition to the
                      reimbursement of all costs associated with these services.
                      During FYs 2002-2003, the third-party entity collected
                      $12.5 million in royalty fees from patents generated by
                      Ames' research. The Laboratory's net share of these fees
                      was $3.5 million. As of May 2004, the third-party entity
                      had distributed approximately $1 million to the Laboratory
                      under an allocation plan that called for distributions over
                      the life of the patent.

                      Although required by contract and Department regulations,
                      Ames did not ensure that the third-party entity managing
                      commercialization of its research properly safeguarded and
                      controlled royalty income. In particular, Ames did not
                      require that the entity properly controlled Laboratory
                      resources by segregating them from other non-Laboratory
                      funds. During our review we learned that the third-party
                      entity co-mingled about $2.5 million of Ames' royalties in
                      one bank account with other non-Laboratory funds. Ames
                      had no control over the common bank account and could
                      not restrict a complete drawn down or withdrawal of funds
                      belonging to the Laboratory from the account.




________________________________________________________________
Page 1                                             Details of Finding
                                  In addition to problems associated with the scope of third-
                                  party entity control, we also found that Ames had not
                                  established funds controls over its royalty income. The
                                  Laboratory did not maintain records and had not
                                  established accounts to ensure that royalties were
                                  accumulated and expended for established purposes.
                                  Finally, investment income earned on the $2.5 million was
                                  accruing to the third-party entity rather than to Ames.

                                                         Expenditure Planning

                                  While the Department required laboratories to plan for and
                                  expend royalty revenues in pursuit of its mission, we noted
                                  that Ames had taken little action in this area. We found
                                  that the Laboratory had not developed a detailed plan to use
                                  $1.3 million1 it had available from royalty revenues.
                                  Lacking a plan, Ames had expended only a small fraction
                                  of the $1.3 million – about $1,000 through May 2004. The
                                  Ames Director agreed that the Laboratory needed to
                                  develop a specific plan to spend the nearly $3.5 million that
                                  will ultimately be distributed to the Laboratory in pursuit of
                                  its research, technology transfer and education missions.


Departmental                      These issues occurred, at least in part, because the
Guidance and                      Office of Science had not provided guidance regarding the
Oversight                         extent to which its laboratories were permitted to rely on
                                  third-party entities to assume fiduciary responsibility for
                                  patent and royalty revenues. While the authorization to
                                  employ third-party entities was implemented through
                                  contract language, no additional guidance was provided
                                  regarding the scope of their responsibilities or the
                                  accounting treatment necessary for these revenues.
                                  Furthermore, the Ames Site Office had not provided
                                  adequate oversight to ensure that Ames established a plan
                                  to use patent revenues in a manner consistent with contract
                                  terms. For example, although the Site Office approved a
                                  disposition plan for royalty revenues submitted by Ames,
                                  the plan merely restated the contract terms to use royalty
                                  revenues in support of research, technology transfer and
                                  education without any specific projects or timeframes.



1
  $1.3 million was available for use by Ames as of May 2004. This amount is comprised of $1 million of
the $3.5 million earned in FYs 2002-2003 and $300,000 earned in prior fiscal years.

________________________________________________________________
Page 2                                             Details of Finding
Resources at Risk    Approximately $3.5 million generated by technology
                     transfer is at greater risk of loss and of not being
                     productively used for the Laboratory mission. Because of
                     issues with segregation and funds control, the Ames Site
                     Office lacks assurance that funds are accurately reported,
                     properly safeguarded, and expended for their intended
                     purpose. In addition, the Laboratory did not receive credit
                     for about $252,000 in past investment income, and will not
                     share in additional future investment income, as earnings
                     on these funds accrued to the third-party entity. Finally,
                     without a more detailed disposition plan, there is no
                     assurance that the revenues will be used efficiently and in
                     accordance with contractual requirements.


RECOMMENDATIONS      To ensure the accuracy of reported totals and consistent
                     technology transfer policies, we recommend that the
                     Deputy Director for Operations, Office of Science, in
                     coordination with the Office of Science and Technology
                     Policy Analysis, take the following actions:

                          1. Develop and implement guidance over third-party
                             administration of royalty revenues. At a
                             minimum, the guidance should address controls to
                             separately account for funds and prohibit
                             co-mingling them with non-laboratory funds; the
                             ownership of interest or investment income; and
                             the distribution of royalty revenues to the
                             laboratories.

                     To ensure that Ames safeguards and expends revenues
                     earned from patent and licensing activities in accordance
                     with the terms of its contract and Department policies, we
                     recommend that the Manager, Ames Site Office, ensure
                     that Ames Laboratory:

                          2. Establishes controls over resources earned from
                             licensing activities originating from laboratory
                             invention disclosures, including any past and
                             future interest earned on such resources;

                          3. Independently accounts for patent revenues and
                             expenses within the Laboratory's accounting
                             system;



________________________________________________________________
Page 3                                            Recommendations
                          4. Formulates a detailed plan for the efficient use of
                             licensing resources for mission related purposes;
                             and,

                          5. Obtains credit for investment income earned from
                             patent royalties collected by the third-party entity.


MANAGEMENT           The Office of Science generally concurred with our finding
REACTION             and recommendations and agreed to take corrective actions.
                     While Science officials agreed that guidance over third-
                     party administration of royalty revenues would be useful,
                     they suggested that the Office of Procurement and
                     Assistance Policy, within the Office of Management,
                     Budget, and Evaluation, coordinate the development of
                     Departmentwide guidance. Science and the Ames Site
                     Office agreed to take action to ensure that controls over
                     patent revenues are established, that Laboratory funds held
                     by the third-party are segregated from non-Laboratory
                     funds, that investment income earned on Ames' revenues is
                     credited to Ames, and to require Ames to revise its Royalty
                     Use Plan to include more details on the planned usage of
                     the funds. Although officials stated that Ames is not
                     contractually required to account for patent activity within
                     the accounting system, they did agree to require a greater
                     amount of review and record keeping over patent revenues,
                     and to have Ames notify the Department of the patent
                     activity on a more frequent basis.


AUDITOR COMMENTS     Management's comments are generally responsive to our
                     recommendations. While we are encouraged that Science
                     agrees that guidance would be useful, other officials do not
                     agree that Departmentwide guidance is necessary. In
                     particular, Office of Management, Budget and
                     Evaluation/Chief Financial Officer officials believe that the
                     appropriate remedy is that suggested by our
                     recommendation. These officials, which included
                     representatives of the Office of Procurement and
                     Assistance Policy, reviewed our report and told us that they
                     believed that the situation we reported should be addressed
                     through program-level guidance. These officials believe,
                     and we concur, that current contract clauses are adequate
                     but that operational guidance from Science is needed.



________________________________________________________________
Page 4                                                  Comments
                     While we believe that the proposed corrective actions are a
                     positive first step, we are concerned that some actions do
                     not go far enough in establishing controls over patent and
                     royalty income. Specifically, we are concerned the
                     Department's control over patent revenue funds will not be
                     significantly improved unless patent activities are recorded
                     in the Laboratory's accounting system. If no other means
                     can be found to transfer control over the funds, we suggest
                     that program officials consider requiring the third-party
                     entity to make an annual distribution of the entire balance,
                     as required under the M&O contract.




________________________________________________________________
Page 5                                                  Comments
Appendix 1                             _______________________

OBJECTIVE             To determine whether the Ames Laboratory had managed
                      its patents and royalty revenue in a manner consistent with
                      contract terms and Departmental policy.


SCOPE                 The audit was performed during 2004 at Department
                      Headquarters, Washington, DC; Ames Laboratory in Ames,
                      IA; and the Chicago Office in Argonne, IL. The scope of
                      the audit included patent and licensing activity at the Ames
                      Laboratory during FYs 2002-2003.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed applicable laws and regulations
                               pertaining to patent and licensing activity;

                           •   Reviewed Departmental and Laboratory policies
                               and procedures related to patent activity;

                           •   Reviewed the Government Performance and
                               Results Act of 1993 and determined if
                               performance measures had been established;

                           •   Reviewed patent records and related
                               documentation for FYs 2002-2003; and,

                           •   Held discussions with officials and personnel
                               from the Office of Science and Technology Policy
                               Analysis, General Counsel, Ames Laboratory, the
                               Ames Site Office, and the Chicago Office.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Performance
                      measures were not established for the area of patents and,
                      therefore, we could not assess how they might have been
                      used to measure performance. Because our review was
                      limited, it would not necessarily have disclosed all internal
                      control deficiencies that may have existed at the time of the




________________________________________________________________
Page 6                             Objective, Scope, and Methodology
Appendix 1 (continued)

                      audit. We relied on computer processed data to accomplish
                      our audit and through limited testing, established the
                      reliability of data we considered critical to satisfying our
                      objective.

                      An exit conference was held with Ames Site Office
                      management on April 15, 2005, and the Office of Science
                      on April 27, 2005.




________________________________________________________________
Page 7                             Objective, Scope, and Methodology
Appendix 2______________________________________

                             PRIOR AUDIT REPORTS


   •   Management of Patent and Licensing Activities at Department-Owned
       Contractor-Operated Laboratories (DOE/IG-0479, August 2000). The audit
       reviewed patent and licensing activities at the Department's laboratories and
       found that patent infringement claims against the Department's laboratories had
       increased in recent years. The audit contained recommendations designed to
       resolve issues of competition with the private sector and patent infringement.

   •   Technology Transfer: Several Factors Have Led to a Decline In Partnerships at
       DOE's Laboratories (GAO-02-465, April 2002). The audit reported on
       Technology Transfer at 12 laboratories. The report disclosed that the laboratories
       had substantially reduced Cooperative Research and Development Agreement
       partnerships primarily because of funding constraints, and were no longer
       offering technical assistance to small businesses, unless the business was willing
       to pay for the assistance. In contrast, the audit found that between 1992 and 2001
       there had been a fourfold increase in Work-For-Others agreements, and an
       eightfold increase in technology licenses and user facility agreements.

   •   Technology Transfer: DOE Has Fewer Partnerships and They Rely More on
       Private Funding (GAO-01-568. July 2001). This audit reported that between
       1995 and 2000, NNSA laboratories had reduced technology transfer activities
       which were not fully funded by the private sector, while increasing activities
       which were fully funded. The audit found that technical assistance to small
       businesses and Cooperative Research and Development Agreements had been
       reduced, while Work-For-Others and technology licensing activities had
       increased.

   •   Technology Transfer: Reporting Requirements For Federally Sponsored
       Inventions Need Revision (GAO/RCED-99-242, August 1999). This audit
       determined that federal agencies were not complying with regulations regarding
       the disclosure, reporting, retention, and licensing of federally-sponsored
       inventions. In addition, the audit determined that inaccurate and incomplete
       databases resulted in the Government not always being aware of inventions to
       which it had royalty free rights.




________________________________________________________________
Page 8                                               Prior Reports
Appendix 3




________________________________________________________________
Page 9                                      Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 10                                     Management Comments
                                                             IG Report No. OAS-M-05-05

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
